In response to the draft report, the KUFW did not agree with our findings that CSG
restricted grant funds were not expended for national programming, grants expenditures
were not discretely accounted for; and in- kind contributions were over reported on the
AFR. However, KUFW did agreed that fundraising expenses were not reported
according to CPB reporting guidelines and stated that they are implementing operating
procedures to properly comply with the Communications Act requirements. KUFW’s
complete response to our draft report is included on Exhibit F.

This report presents the conclusions of the OIG and the findings reported do not
necessarily represent CPB’s final position on these issues. Accordingly, the report
contains recommendations the OIG believes would be appropriate to resolve these
findings.

In accordance with CPB audit resolution procedures, CPB management is responsible
for determining the corrective actions to be taken. Based on KUFW’s response to the
draft report, we consider all eight recommendations unresolved, pending a CPB
management decision.


                                       BACKGROUND
Public broadcasting station KUFW (89.7 FM, located) in Visalia, CA, is a member of
Radio Campesina Network1 which broadcasts using a Spanish format. The Cesar
Chavez Foundation (CCF), formerly the National Farm Workers Service Center is the
licensee of the Radio Campesina Network. The Radio Campesina Network’s mission is
to enhance the social and economic well being of the Latino community through quality
educational radio programming. The stations broadcast programs targeting recent
immigrants from rural Mexico and Central America between the ages of 25 and 49, an
audience that has traditionally eluded educational radio.

Exhibit A reconciles CPB payments to CPB revenues reported on KUFW’s 2008 – 2010
AFRs. Total revenues of, $1,388,729 was reported for the CSGs and $50,903 for a
Fiscal Stabilization grant.

CPB awards annual CSG grants to public television and radio stations based on the
amount of NFFS claimed by all stations on their AFRs. The radio CSG pool of
appropriated funds is adjusted by base grant awards and the Rural Listener Access
Incentive Fund reserve. The funds that remain are called the Incentive Grant Pools.
The Incentive Rate of Return (IRR) is calculated by dividing the Incentive Grant Pools
by the total amount of NFFS claimed by all radio stations. The IRR is then multiplied by
the station’s reported NFFS to calculate the incentive award amount of the station’s total
CSG. There is a two year lag between the reported NFFS and CPB’s calculation of the


1
 The Radio Campesina Network is comprised of 9 radio stations, 7 commercial stations and 2 public
broadcasting stations KUFW-FM and KNAI-FM. KNAI-FM is a transmitter station under KUFW’s CPB
grant.

                                                 2
fiscal year’s CSG amount. For example, CPB used the NFFS claimed by KUFW on its
FY 2007 AFR to determine the amount of the CSG the station received in FY 2009.

KUFW’s reported total direct revenues of $12,902,110 for FYs 2008 - FY 2010
presented in Exhibit B by fiscal year. KUFW also reported total NFFS of $13,488,884
for FYs 2008 - 2010 per Exhibit C.


                             RESULTS OF REVIEW
We examined KUFW management’s assertions of compliance with CPB’s CSG grant
agreement terms, Certification of Eligibility requirements, Act requirements, and NFFS
financial reporting guidelines for the periods ending December 31, 2008 - 2010.
Management is responsible for compliance with those requirements. Our responsibility
is to express an opinion on management’s assertions about its compliance based on
our examination.

Our examination was conducted in accordance with the Government Auditing
Standards for attestation engagements and, accordingly, included examining, on a test
basis, evidence about KUFW’s compliance with those requirements and performing
such other procedures as we considered necessary in the circumstances. We believe
that our examination provides a reasonable basis for our opinion. Our examination
does not provide a legal determination on KUFW’s compliance with specified
requirements.

Our examination disclosed the following material noncompliance issues with CPB’s
CSG grant agreement terms, Certification of Eligibility requirements, NFFS reporting
requirements, and Communications Act requirements applicable to the periods ending
December 31, 2008 - 2010.

   • KUFW did not expend CSG restricted grant funds for national programming
      resulting in questioned costs totaling $363,891.
   • KUFW over-stated NFFS by $864,922 resulting in excess CSG payments totaling
     $54,398 which we have classified as funds put to better use for reporting
     purposes.
   • CPB grants expenditures were not discretely accounted for in the accounting
     records, they were comingled with other KUFW transactions and the AFRs did
     not separately report CPB restricted funds received.
   • KUFW did not comply with the open meeting requirements of the
     Communications Act.

In our opinion, because of the effect of the material noncompliance described above,
KUFW has not complied with the aforementioned requirements for the periods ending
December 31, 2008 - 2010.



                                           3
                    FINDINGS AND RECOMMENDATIONS

Use of Restricted Radio CSG Grant

Our review of KUFW’s CSG expenditures identified that KUFW did not comply with
CPB restricted funding requirements to use restricted radio funds to acquire national
programming. The station expended these funds on salaries, fringe benefits and
operational expenses to produce educational programming, but the programs were not
placed in the national marketplace of public radio programming. As a result, we
questioned $363,891 in restricted funds.

FY 2008 Radio Community Service Grant (CSG), General Provisions & Eligibility
Criteria, Section 3., A., 2., Restricted Portion of the CSG, states:

   This portion of the CSG must be used exclusively for the acquisition, production,
   promotion, and distribution of national programming of high quality…To qualify as a
   national program for funding from CSG funds, a program must be placed in the
   national marketplace of public radio programming… Expenditures from the restricted
   portion of the CSG must fall in four categories:

          (1) Production
          (2) Program and Content Acquisition
          (3) Distribution
          (4) Promotion …

Discussions with station officials disclosed that they were not aware of this requirement.
In a written response to our preliminary observations they stated that their educational
programs were distributed by satellite to nine radio markets and surrounding
communities in the states of California, Arizona, and Washington through their network
of radio stations. The original content that they produced was broadcast to
approximately half a million listeners in these markets on a daily basis and reached
thousands of other listeners nationally and internationally via their internet stream.
However, the programs produced by the Network Department were not placed in the
national marketplace of public radio programming.

By not expending these funds on national programming the wider public broadcasting
community did not fully benefit from this investment in programming. As a result, we
questioned $363,891, per Exhibit D.

      Recommendations

We recommend that CPB management take the following actions:

   1. Recover $363,891 in restricted funding that was not used to pay for the
      acquisition, production, promotion or distribution of national programming.


                                            4
   2. Require KUFW to establish controls over spending to ensure future radio
      restricted funds are expended on qualified national programming.

       KUFW Response

In response to recommendation 1, KUFW officials disagreed with the finding on the
expenditure of restricted funds to acquire national programming. They stated that they
expended the restricted funds on the development and distribution of CCF’s original
educational content that is delivered to approximately half a million listeners in their
markets on a daily basis and thousands of other listeners nationally and internationally
via their internet streaming and content downloads They also said that Foundation
officials have presented programs at conferences held by the National Federation of
Community Broadcasters and Public Radio Program Directors where station
representatives were informed about the availability of their original programming.

KUFW officials did not address recommendation 2.

       OIG Review and Comment

Based on KUFW’s response we consider recommendations 1 and 2 unresolved
pending CPB’s management decision. CPB Radio CSG General Provisions and
Eligibility Criteria cited in this report require that the restricted portion of the CSG be
used for programming that is placed in the national marketplace of public radio
programming. We disagree that programming created by and distribution to the nine
Radio Campesina network stations, seven of which are commercial, qualified as
programming placed in the national public radio marketplace.


Non-Compliant Non-Federal Financial Support

Our review of KUFW’s AFRs found that NFFS was over-stated by $864,922 for the
three years audited because KUFW incorrectly reported fundraising revenues and
overstated the value of an in-kind contribution. This over-statement of NFFS resulted in
excessive CPB payments of $54,398 ($52,883 for fundraising income and $1,515 for in-
kind contributions) during FYs 2010 - 2012. For reporting purposes, we have classified
the $54,398 as funds put to better use.

       Fundraising Revenue

KUFW did not report fundraising revenues net of direct expenses on line 14A of the
AFRs or reported the related expenses as fundraising expenses on line 14B of
Schedule A as required by CPB Financial Reporting Guidelines. The AFR reconciliation
worksheets prepared by the Foundation showed that fundraising expenses were initially
netted from the fundraising revenue. However, when the AFR was prepared they were
not shown on Line 14B reducing the reported revenues. As a result, NFFS was


                                              5
overstated by a total of $840,522, resulting in NFFS overpayments of $52,883 for the
three year period as calculated in Exhibit D.

CPB Financial Reporting Guidelines, Section 5 Completing AFR Schedule A, Direct
Revenue, Line 14, states that to be claimed as NFFS, all direct costs of special fund
raising activities including those costs incurred to produce such events and costs for
prizes distributed should be deducted from the gross proceeds on line 14B of the AFR
or reported net of direct expenses on line 14A of the AFR.

       Trade and In-Kind Contributions

KUFW entered into a trade/underwriting agreement where they traded radio
announcements for a 2004 Chevrolet truck which was valued at $36,400 on Schedule D
of the FY 2010 AFR. Our review indicated that the amount claimed as in-kind
contribution was far greater that the fair market value of a 2004 Chevrolet truck,
approximately $12,000, at the January 23, 2010 donation date.

Generally accepted accounting principles (GAAP) requires that grantees record all
significant contributed support at fair value at the time of donation, provided there is a
clearly measurable and objective basis for determining the value. In addition, GAAP
also requires that documentation of contributed goods and services must support the
determination of fair value. Sufficient evidence must be retained by the grantee and be
available for audit purposes. An invoice or letter from the donor is an example of such
documentation. Donors must independently document their contributions as to
description, date(s) of donation, fair value and method of valuation.

KUFW did not determine the fair market value of the truck when claiming it as an in-kind
trade but simply used the original purchase documents provided by the donor to assign
value. As a result, KUFW’s NFFS on Schedule D of the FY 2010 AFR was overstated
by $24,400 resulting in a $1,515 over-payment by CPB.

       Recommendations

We recommend that CPB management take the following actions:

   3. Recover $54,398 in potential CPB over-payments because of over-reported FY
      2008-2010 NFFS.
   4. Require KUFW to submit revised AFRs, Schedules A for FY 2008, eliminating
      questionable direct revenue of $864,922.
   5. Require KUFW to establish internal controls over the AFR preparation to ensure
      that the AFR schedules A and C report revenues correctly.

       KUFW Response

In response to this finding, KUFW officials acknowledged that fundraising revenues
were not reported in accordance with CPB Financial Reporting Guidelines. They said

                                             6
that there was a change in the AFR reporting format that changed the fundraising
expenses from the expense line item to an offsetting revenue item, which effectively
changed the net revenues. They also stated that this change in reporting will be
corrected in the future.

With respect to the in-kind trade of underwriting for the Chevrolet truck, KUFW officials
stated that the trade was based on an agreement with the donor and the station relied
on the fair market value of the truck because the donor provided a copy of an invoice to
support the value of the contribution. They further stated that this practice was fully
consistent with industry practice, and although they agreed to change their practice to
conform to CPB requirements, they should not be penalized for following industry
practice.

KUFW officials did not specifically respond to any of these three recommendations.

      OIG Review and Comment

Based on KUFW’s response we consider recommendations 3, 4, and 5 unresolved
pending CPB’s management decision. While CCF’s response acknowledged the future
fundraising reporting would be corrected, they did not specify what corrective actions
they will be taking. The requirement to deduct fund raising expenses from fund raising
revenues has been in effect for many years. The change in the AFR reporting format,
i.e., adding a line to show the fund raising expense to be deducted was made to
reinforce the requirement that fundraising revenues had to be reported net of direct
expenses.

With respect to CCF’s comments on the in-kind trade value of a six year old Chevrolet
truck, we did not find the grantee’s response acceptable. As stated above, GAAP
requires that grantees record in-kind contributions at the fair value at the time of
donation. In this case, we did not find a six year old truck valued at the original
purchase price to be a fair value, particularly when the market value of a used truck is
readily available on the internet.


Discrete Accounting Needed to Document the Use of CSG Funds

KUFW’s accounting system did not separately identify the use of CSG funds in
accordance with CPB grant terms. CPB funds and expenses were comingled with other
station revenue and expenses, and we could not independently verify the use of CPB
funds without the assistance of Foundation accounting officials.

CPB’s General Provisions and Eligibility Criteria for TV and Radio CSGs, Section 10.B.
Record Keeping and Audit Requirements, require stations to provide discrete
accounting and proper documentation to support all CSG revenues and expenditures.
Further, CPB’s Radio, CSG, Section 3. Use of Grant Funds – Purpose and Restrictions,
provides guidance on the use of the discretionary portion of the CSG on seven different

                                            7
cost categories:

       Programming and Production
       Broadcasting, Transmission, and Distribution
       Programming Information and Promotion
       Fundraising and Membership Development
       Underwriting and Grant Solicitation
       Management and General
       Purchase, Rehabilitation, or Improvement of Capital Assets

Our review found that separate CPB revenue accounts were not established in the
general ledger to record the use of CPB funds. CPB funds and expenses were
comingled with other station revenue and expenses. We had to rely on Foundation
accounting officials to identify expensed charged to the CSG grant. We were told by
these officials that they fully expended CSG grant funds during the year they were
received.

Additionally, we identified that KUFW inaccurately reported CPB funds on its AFRs by
not separately identifying the restricted portions of their CSG grants on Line 2.C. for the
three years audited totaling $363,891 and by not separately reporting the 2010 Fiscal
Stabilization Grant totaling $50,903 on Line 2.E. of the 2010 AFR. In each instance the
restricted and stabilization funds were included in the revenues reported as CSG
unrestricted funds.

This finding was also discussed with Foundation officials and they said that they were
not aware of the separate accounting reporting requirements for CPB grant funds. They
acknowledged that their accounting system did not provide discrete accounting of CPB
grant expenses and understood the need for better accountability. They agreed to add a
general ledger object code or account to separately track CPB revenues and expenses
to provide an adequate audit trail and facilitate the accurate reporting of grant revenues.

       Recommendations

We recommend that CPB take the following actions to require KUFW to:

   6. Establish discrete accounting for CPB grant funds, to separately track CPB
      revenues and match to expenditures to provide an adequate audit trail of the use
      of CPB grant funds.

   7. Ensure controls established in response to Recommendation 5 over the AFR
      preparation process included properly reporting restricted CPB funds received.

       KUFW Response

KUFW officials disagreed with recommendation 6. They explained that CCF used fund
accounting as its basic accounting format and the public broadcasting operations of

                                             8
CCF operates as a division within their organization. The public broadcasting
operations are reported in separate funds to provide segregation of assets, liabilities,
revenues, expenses and net assets. These funds are labeled with unique account
coding that identifies only the accounts of the public broadcasting operations where the
funds of the CSG are recorded. They stated that all transactions related to revenue and
expenditure of public broadcasting funds are recorded and tracked within these funds.
The education fund within this account coding is considered to be the primary fund
where the receipt of the CSG funds is recorded. Expenditures related to the CSG funds
are recorded in the education fund, as well as in the other funds within the public
broadcasting operations. Allocating CSG funds among other public broadcasting funds
allowed for the optimum use of the CSG funds.

KUFW officials did not respond to recommendation 7.

       OIG Review and Comment

Based on KUFW’s response, we consider recommendations 6 and 7 unresolved
pending CPB’s management decision. While the CCF used fund accounting to
separately track the different divisions within the foundation, the comingling of CPB
revenues and expenditures within the public broadcasting division did not discretely
account for CPB revenues and expenses. Further, the comingling of all public
broadcasting activities did not facilitate our audit of CPB funds. The fact that
expenditures related to the CSG funds were recorded in the education fund, comingled
with other funds within the public broadcasting division contributed to our inability to
identify specific expenses paid from CSG funds, without the assistance of CCF officials.


Compliance with Communications Act Requirements

Our examination found that the Foundation did not comply with the open meetings
requirements of the Communications Act. The Foundation Board of Directors (BOD)
met twice a year. A review of the BOD meeting minutes showed that they discussed
the Radio Campesina Network operation (including public broadcasting activities) and
made network business decisions. However, the Foundation board meetings were not
open to the public as required by the Communications Act. Further, the Foundation did
not:

   •   provide seven days advance notice of public meetings of the Foundation BOD;

   •   provide quarterly on-air announcements on at least three consecutive days of the
       station’s open meeting policy and how the public could obtain information on the
       dates, times, and location of upcoming BOD meetings; and

   •   document operating policies for complying with CPB’s open meeting
       requirements.



                                           9
In addition KUFW and KNAI have Community Advisory Boards (CAB) that meets twice
a year. CAB meeting notices were published 10 days in advance of the scheduled
meetings. Proper announcements were broadcast in the specific markets of the CAB
meetings and notices were placed on the Campesina website as well as on Facebook.
However, KUFW/KNAI CABs did not comply with CPB’s open meeting requirements to
provide on-air announcements on at least three consecutive days describing the
station’s open meeting policy and how the public could obtain information on the dates,
times, and location of upcoming meetings.

Section 396(k)(4) of the Act (47 U.S.C. §396(k)(4)) prohibits the distribution of federally
appropriated funds to the licensee of a public broadcasting station unless the governing
body of the organization, any committees of such governing body, or any advisory body
of any such organization holds open meetings preceded by reasonable notice to the
public.

The minimum compliance requirements for “reasonable notice” to the public as stated in
CPB’s explanation of the Act requires stations to “give reasonable notice to the public of
the fact, time and place of an open meeting at least one week (7 days) in advance of
the scheduled date . . . .” CPB’s explanation of the Act requires stations to provide
three types of notice.

       1. Notice placed in the "Legal Notices" or the radio and television
          schedules section of a local newspaper in general circulation in the
          station's coverage area; or, notice is available through a recorded
          announcement that is accessible on the station's phone system; or,
          notice is available through an announcement that is accessible on
          the station's web page.

       2. Notice communicated by letter, e-mail, fax, phone, or in person to
          any individuals who have specifically requested that they be notified.

       3. On-air announcements on at least three consecutive days once
          during each calendar quarter that explain the station's open meeting
          policy and provides information about how the public can obtain
          information regarding specific dates, times, and locations.

The Executive Vice President of the Foundation stated that the Foundation did not
make the BOD meetings open to the public in the past because the radio operations are
only a part of the Chavez Foundation’s many programs, that the Foundation BOD often
discusses sensitive financial and private information at these meetings that is not public
information. However, the Foundation would be open to ideas to make changes to
comply with the Communications Act Open Meetings requirements. In the case of the
CABs, station management stated that they were not aware of this requirement and
immediately drafted a policy to ensure that notices are aired quarterly.




                                            10
The station’s lack of compliance with these requirements deprived the public of the
required information envisioned by the Act. This information provides transparency, as
well as, informs the public about how the station operates.

      Recommendation

We recommend that CPB management take the following actions to require the
Foundation to:

   8. Fully comply with all requirements of the Communications Act and provide
      documentation of its compliance with the following provisions over the next fiscal
      year.

      a) Provide adequate advance notice of public meetings of the Board of
         Directors.

      b) Make on-air announcements for at least three consecutive days once each
         calendar quarter that explain the station's open meeting policy.

      c) Establish written operating policies documenting their compliance with CPB’s
         Open Meetings requirements.

      KUFW Response

In response to recommendation 8, KUFW officials stated that they amended their
policies and operating procedures to ensure proper notice of its open meeting policies
about its CAB are broadcast on a quarterly basis to comply with CAB open meeting
requirements.

They also stated that the CCF’s Radio Campesina operations are a fraction of the
business that is discussed by the CCF’s Board of Directors, and legitimate privacy,
privilege and confidentiality concerns exist regarding many of the issues discussed at
the board meetings. However CCF is committed to adjusting its Board of Directors
meetings to ensure compliance with CPB standards moving forward.

      OIG Review and Comment

Based on KUFW’s response, we consider recommendations 8 a-c unresolved pending
CPB’s management decision. While CCF’s response indicates that policies and
operating procedures for the CAB have been amended, we defer to CPB to determine
whether this policy adequately addresses CAB responsibilities. Further, while CCF
stated that the CCF Board of Directors intends to comply with the open meeting
requirements when discussing public broadcasting matters, CCF has not implemented a
policy to comply with this requirement.




                                           11
                                                                                     EXHIBIT A

                                   KUFW
           Reconciliation of AFR CPB Revenues to CPB Payments
                    January 1, 2008 – December 31, 2010


                  Community
    Date         Service Grant:       2008 AFR        2009 AFR        2010 AFR           Total
               FY 2009 Radio CSG
 10/15/2008    Unrestricted              $193,195                                          $193,195
               FY 2009 Radio CSG
 10/15/2008    Restricted                  $68,268                                          $68,268
               FY 2009 Radio CSG
   7/8/2009    Unrestricted              $193,195                                          $193,195
               FY 2009 Radio CSG
   7/8/2009    Restricted                  $68,268                                          $68,268
               FY 2010 Radio CSG
 11/12/2009    Unrestricted                               $172,591                         $172,591
               FY 2010 Radio CSG
 11/12/2009    Restricted                                  $61,621                          $61,621
               FY 2010 Radio CSG
  6/30/2010    Unrestricted                               $172,591                         $172,591
               FY 2010 Radio CSG
  6/30/2010    Restricted                                  $61,621                          $61,621
               FY 2011 Radio CSG
 11/16/2010    Unrestricted                                              $146,633          $146,633
               FY 2011 Radio CSG
 11/16/2010    Restricted                                                  $52,057          $52,057
               FY 2011 Radio CSG
   7/6/2011    Unrestricted                                              $146,633          $146,633
               FY 2011 Radio CSG
   7/6/2011    Restricted                                                  $52,056          $52,056

                    Sub-Total            $522,926         $468,424       $397,379        $1,388,729




               Other:
               Fiscal Stabilization
  1/13/2010    Grant                                                       $50,903          $50,903

                        Total            $522,926         $468,424       $448,282        $1,439,632

Note: KUFW recognizes CSG grant awards as revenues in the year the grant agreement was executed.
Generally this occurred during the fall of each year.




                                              12
                                                                                           EXHIBIT B

                                          KUFW
                                 Annual Financial Reports
                          Years Ending December 31, 2008 to 2010

Line                       Description                           FY 2008        FY 2009          FY 2010


        Schedule A, Source of Income:
2.A.    CPB-CSG                                                   $522,926         $468,424        $448,282
2.C.    CPB-Restricted CSG                                               $0              $0                $0
2.E.    CPB – All other funds                                            $0              $0                $0
 8      Foundation and nonprofit associations                            $0               $0         $28,000
 9      Business and Industry                                    $3,496,109      $2,605,970      $2,447,254
14.A.   Gross special fundraising activities                      $354,856         $244,239        $202,622
 15     Passive Income                                              $3,783           $8,118                $0
 20     Other Direct Revenue                                      $845,469         $688,894        $537,164
 21     Total Revenue                                            $5,223,143      $4,015,645      $3,663,322
        Adjustments to Revenue
 23     Public broadcasting revenue                               $522,926         $468,424        $448,282
        Other revenue on line 21 not meeting the source,
        form, purpose, or recipient criteria to be included as
 25     NFFS                                                      $682,800         $533,400        $537,164
 27.    Total Direct Nonfederal Financial Support                $4,017,417      $3,013,821      $2,677,876
        Schedule C, In-Kind Contributions
 2      General Operational Services                              $130,459         $207,420        $161,040
        Total In-Kind Services                                    $130,459         $207,420        $161,040

 5      IN-KIND CONTRIBUTIONS INELIGIBLE AS NFFS                   $27,785          $15,710           $7,960
        Total in-kind contributions - services and other
 6      assets (line 4 plus line 5),                              $158,244         $223,130        $169,000
        Schedule D, In-kind Contributions - Property &
        Equipment
 4      Vehicle(s) (must be eligible as NFFS)                            $0               $0         $36,400
 6      Total in-kind contributions                                      $0              $0          $36,400

 7      IN-KIND CONTRIBUTIONS INELIGIBLE AS NFFS                         $0               $0               $0
        Total in-kind contributions - property and
        equipment (line 6 plus line 7), forwards to Schedule
        F, line 1d. Must agree with in-kind contributions
 8      recognized as revenue in the AFS.                                $0               $0         $36,400

 Note: KUFW did not report the restricted portion of the CSG on Line 2.C. or a 2010 Fiscal Stabilization
 grant on Line 2.E., as required



                                                   13
                                                                                   EXHIBIT C

                                      KUFW
               Summary of Non-Federal Financial Support 2008-2010
        Certified by Head of Grantee and Independent Accountant's Report

Line                     Description                  FY 2008        FY 2009        FY 2010


       Summary of Non-Federal Financial Support:
 1     Direct Revenue (Schedule A)                    $5,223,143    $4,015,645     $3,663,322
 2     Indirect Administrative (Schedule B)                     0              0              0
 3     In-Kind Contributions (Schedule C)               158,244       223,130        169,000
3a      Services and Other Assets (Schedule C)                  0              0      36,400
3b      Property and Equipment (Schedule D)                     0              0           0
 4     Total Non-Federal Financial Support            $5,381,387    $4,238,775     $3,868,722




                                                 14
                                                                                      EXHIBIT D


                                               KUFW
                                    Summary of Monetary Findings

                                                                      Funds Put to    Questioned
                                    FY 2008     FY 2009    FY 2010     Better Use       Costs

Fundraising NFFS Overstated          $448,427   $241,115   $150,980
In kind Contribution - 2004 Truck                           $24,400
    Total Overstated NFFS            $448,427   $241,115   $175,380


Radio Incentive Rate of Return       0.062124   0.064888   0.062124


     Total Over Payments              $27,858    $15,645    $10,895         $54,398

Restricted Funds not Used for
National Programs                    $136,536   $123,242   $104,113                      $363,891

             Totals                  $164,394   $138,887   $115,008         $54,398      $363,891




                                                    15
                                                                           EXHIBIT E


                         SCOPE AND METHODOLOGY

We performed an examination to determine KUFW’s adherence to the requirements of
the CPB Financial Reporting Guidelines, Generally Accepted Accounting Principles, Act
requirements, and CPB grant provisions and certification requirements. The scope of
the examination included reviews and tests of the data reported by the station on the
AFRs and audited financial statements for the years ending December 31, 2008, 2009,
and 2010. We examined KUFW’s compliance with the Act and Certification
Requirements for CPB station grant recipients. We examined expenses from the
Community Service Grants to determine if expenses incurred were allowable and in
accordance with the terms and conditions of the grants.

We judgmentally selected a sample of underwriting transactions for review. We
reviewed underwriting transactions valued at $1,674,855 from a total of $8,549,333 (20
percent) for the three year period. We also reviewed a judgmental sample of 102
payroll and non-payroll disbursement transactions charged to the three CPB CSG
grants for Fiscal Years 2008 – 2010 (grant expenditure periods from October 1, 2007 –
September 30, 2011), totaling $123,759. We reviewed supporting documentation for
underwriting agreements, grant agreements, vendor invoices, and other documentation
supporting the revenue and expenditure transactions tested.

We also reviewed records and documents supporting the station’s compliance with the
Act requirements to provide advance notice of public meetings of the Board of Directors
and CABs, financial and EEO information made available to the public, and documents
supporting compliance with donor lists and political activities prohibitions. Our
procedures included interviewing station officials, an accounting consultant, and the
station’s independent public accountant.

We gained an understanding of internal controls over the preparation of AFRs, cash
receipts, and cash disbursements. We also gained an understanding of KUFW’s
policies and procedures for compliance with certification of eligibility requirements,
Communications Act, and CPB grant agreement terms for allowable costs. Our
understanding of the internal control environment and specific control techniques were
used in assessing risks to plan the nature and extent of our testing to conclude on our
objectives. We also tested the effectiveness of controls over payment authorizations.

Our fieldwork at the station was performed at the Foundation, the week of October 17 -
21, 2011 and January 9 - 10, 2012, at KNAI FM November 28 to December 1, 2011 and
at KUFW-FM January 11 - 12, 2012. Our examination was performed in accordance
with the Government Auditing Standards, July 2007 Revision, for attestation
examinations.


                                           16
